<html>
<title> - EXAMINING THE SIGNIFICANT COSTS AND RELATED BURDENS FOR SMALL BUSINESSES RESULTING FROM THE GOLD KING MINE WASTE WATER SPILL NEAR SILVERTON, COLORADO</title>
<body><pre>[Senate Hearing 114-838]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 114-838
 
                    EXAMINING THE SIGNIFICANT COSTS
                AND RELATED BURDENS FOR SMALL BUSINESSES
  RESULTING FROM THE GOLD KING MINE WASTE WATER SPILL NEAR SILVERTON, 
                                COLORADO

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON SMALL BUSINESS
                          AND ENTREPRENEURSHIP
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 1, 2015

                               __________

    Printed for the Committee on Small Business and Entrepreneurship
    
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]     



        Available via the World Wide Web: http://www.govinfo.gov
        
        
        
                          ______                       


             U.S. GOVERNMENT PUBLISHING OFFICE 
45-323 PDF            WASHINGTON : 2021        
        
        
        
            COMMITTEE ON SMALL BUSINESS AND ENTREPRENEURSHIP

                    ONE HUNDRED FOURTEENTH CONGRESS

                              ----------                              
                   DAVID VITTER, Louisiana, Chairman
              BENJAMIN L. CARDIN, Maryland, Ranking Member
JAMES E. RISCH, Idaho                MARIA CANTWELL, Washington
MARCO RUBIO, Florida                 JEANNE SHAHEEN, New Hampshire
RAND PAUL, Kentucky                  HEIDI HEITKAMP, North Dakota
TIM SCOTT, South Carolina            EDWARD J. MARKEY, Massachusetts
DEB FISCHER, Nebraska                CORY A. BOOKER, New Jersey
CORY GARDNER, Colorado               CHRISTOPHER A. COONS, Delaware
JONI ERNST, Iowa                     MAZIE K. HIRONO, Hawaii
KELLY AYOTTE, New Hampshire          GARY C. PETERS, Michigan
MICHAEL B. ENZI, Wyoming
                  Zak Baig, Republican Staff Director
               Robert Diznoff, Democratic Staff Director
               
               
                            C O N T E N T S

                              ----------                              

                           Opening Statements

                                                                   Page

Gardner, Hon. Cory, a U.S. Senator from Colorado.................     1
Bennet, Hon. Michael F., a U.S. Senator from Colorado............    13

                               Witnesses
                                Panel 1

Tipton, Hon. Scott, a U.S. Representative from Colorado..........     9

                                Panel 2

Blake, Bradford P., County Commissioner, La Plata County, CO.....    15
Gallegos, DeAnne, Executive Director, Silverton Area Chamber of 
  Commerce, Silverton, CO........................................    23
Corra, Andrew, Owner, 4Corners Riversports, Durango, CO..........    28

                          Alphabetical Listing

Bennet, Hon. Michael F.
    Opening statement............................................    13
Blake, Bradford P.
    Testimony....................................................    15
    Prepared statement...........................................    18
    The Durango Herald article titled ``Plans to plug the Gold 
      King Mine backfire''.......................................    22
    Form 95......................................................    37
Corra, Andrew
    Testimony....................................................    28
    Prepared statement...........................................    31
Environmental Protection Agency..................................
    Prepared statement...........................................     4
Gallegos, DeAnne
    Testimony....................................................    23
    Prepared statement...........................................    26
Gardner, Hon. Cory
    Opening statement............................................     1
Tipton, Hon. Scott
    Opening statement............................................     9
Vitter, Hon. David
    Prepared statement...........................................     2


                    EXAMINING THE SIGNIFICANT COSTS

                     AND RELATED BURDENS FOR SMALL

                   BUSINESSES RESULTING FROM THE GOLD

          KING MINE WASTE WATER SPILL NEAR SILVERTON, COLORADO

                              ----------                              


                       THURSDAY, OCTOBER 1, 2015

                      United States Senate,
                        Committee on Small Business
                                      and Entrepreneurship,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:05 a.m., in 
Room 428A, Russell Senate Office Building, Hon. Cory Gardner, 
presiding.
    Present: Senator Gardner.
    Also Present: Senator Bennet.

  OPENING STATEMENT OF HON. CORY GARDNER, A U.S. SENATOR FROM 
                            COLORADO

    Senator Gardner. Good morning. We will call the committee 
to order for this morning's hearing in which we will examine 
the significant costs and related burdens for small businesses 
resulting from the Gold King Mine waste water spill near 
Silverton, Colorado.
    Chairman Vitter had hoped to be here this morning, but 
unfortunately, he could not attend, and I want to thank him for 
giving us this opportunity to chair this important hearing. I 
also ask unanimous consent that Chairman Vitter's hearing 
statement be entered into the record.
    Without objection, it will be entered into the record.
    [The prepared statement of Chairman Vitter follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]     
    
    Before hearing from our first witness, the Honorable Scott 
Tipton from Colorado's Third Congressional District, I want to 
briefly mention that the EPA was invited to testify this 
morning, but was unable to send a representative. Instead, they 
submitted testimony, and we have their testimony before us, and 
I ask unanimous consent that it be entered into the record.
    With unanimous consent, it will be entered into the record.
    [The prepared statement of the Environmental Protection 
Agency follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 

    I also want to welcome to the committee Senator Bennet, who 
will be here momentarily to the dais and will be joining us, 
not as a member of the committee, but as a member of the Senate 
who will also be able to participate in this committee hearing, 
and he will be here shortly.
    So, in the interest of time, I will withhold my statement 
until after Congressman Tipton has given his statement. The 
Congressman's district includes the area north of Silverton--it 
includes Silverton, Colorado, but also the area north of 
Silverton, Colorado, where the spill occurred. Mr. Tipton was 
first elected to represent this area in November 2010.
    Congressman, your perspective on this spill is invaluable 
and we appreciate your service and look forward to your 
statement. Thank you for coming before the Small Business 
Committee today. Welcome, Congressman Tipton. Your remarks.

   STATEMENT OF HON. SCOTT TIPTON, A U.S. REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF COLORADO

    Representative Tipton. Well, thank you, Senator Gardner, 
and please extend my thanks to Chairman Vitter, also, for 
convening today's hearing on what we believe is a very 
important issue when it comes to the EPA, the spills, the 
questions yet to be answered, and certainly the economic 
impacts that we are going to be feeling not only in 
southwestern Colorado, but in adjoining states, as well.
    I would like to also extend my thanks to the Small Business 
Committee for focusing on what I believe is a very important 
issue, the lifeblood of our economies in rural Colorado and the 
rural United States, which is our small businesses. I am 
grateful for your willingness to be able to work with me to 
begin what will be a long, complicated process to obtain a 
complete picture of what the economic impacts of the EPA-caused 
Gold King Mine blowout have been so far and into the future.
    I would first like to be able to provide some context for 
why in the wake of this disaster a focus on its impacts on 
small businesses in this area is so crucial. There is, without 
question, going to be a long-term impact on farm and ranch 
communities in the area from this spill, as well as many other 
sectors of the regional economy. However, given the privilege 
today that you have granted me, I will testify and keep my 
remarks brief and focus on one sector where we are likely to 
see the most impact more than any other, and that is in regards 
to tourism.
    Many decades ago, western Colorado relied largely on its 
mining and agricultural industries for economic growth. 
However, our state economy has diversified. We are fortunate to 
be able to have beautiful landscapes that stimulate a now-
thriving tourism economy. The tourism industry relies on our 
state's reputation for thrilling vistas, unparalleled outdoor 
recreation opportunities, and some of the finest tourist 
facilities in the nation.
    The outdoor recreation industry booms in the winter as 
skiers from all over the world descend on our slopes. It 
thrives the rest of the year by offering mountainous terrains 
to hike and explore, as well as exhilarating fishing, rafting, 
kayaking opportunities, and other outdoor activities on our 
rivers. Many of the small businesses that cater to recreational 
tourists and offer these amenities are found throughout my 
district, including southwest Colorado, the region directly 
impacted by the Gold King Mine spill.
    A study published earlier this year by Dean Runyan 
Associates, courtesy of the Colorado Tourism Office, provides a 
very detailed look at the importance of tourism to the various 
regions and counties in the State of Colorado. In 2014, direct 
travel spending in Colorado totaled around $18.6 billion, 
supporting approximately 155,000 jobs and over $5 billion in 
wages.
    La Plata County, the first county downstream from San Juan 
County, where the Gold King Mine is located, relies heavily on 
tourism to be able to sustain its economic well-being. A county 
of over just 53,000 people, La Plata County's share of that 
direct travel spending is over $273 million, supporting about 
3,000 jobs and generating close to $8 million in local tax 
revenue.
    And let us not discount the importance of tourism in San 
Juan County itself, the home of Silverton. San Juan County has 
a population of just 692 people. In 2013, tourists brought 
$14.2 million to San Juan County. That is a little over 
$200,000 for every man, woman, and child that lived there. A 
loss of that revenue would devastate the economy of a remote 
area with few other economic opportunities.
    The EPA maintains the people, businesses, and local 
governments can apply for compensation for their economic 
losses. This sounds great in theory, but calculating a dollar 
amount in this situation is a difficult prospect at best. For 
example, how do local businesses accurately estimate lost 
revenue from tourists who do not come this summer, or the next, 
or the one after that? Almost every county in Colorado has seen 
a year over year increase in direct tourism spending since 
2009. How do you calculate the loss that would have been seen 
from larger increases? These are the questions that we must 
start to try to grapple with.
    Some have opined that designating Silverton as a Superfund 
site is the most sensible solution to clean up contamination, 
but what do the town's residents think? Should they not be at 
the center of this debate? It is my understanding that the 
majority of the town's residents still oppose any such listing 
on the National Priorities List, fearing this designation would 
negatively impact the tourist economy on which the town is 
heavily dependent.
    Their fears are not without merit. Designating Silverton a 
Superfund site, a town in which many of the local businesses 
rely solely on seasonal visits for outdoor tourist enthusiasts, 
could severely damage the town's reputation and prove costly to 
the local economy.
    Many of the local businesses in Durango and Silverton are 
small operations, as are many of the ranches and farms in the 
area and downstream. As a small businessman myself for over 
three decades, I know firsthand how important credit and loans 
are to staying afloat in a lean year. But, ultimately, a bank 
wants their money back and will not loan to a business whose 
customer base they believe is in decline, or a farm or a ranch 
whose access to clean water supply is constantly in jeopardy.
    The uncertain status of the Animas River means many 
businesses that were healthy and thriving now are consequently 
struggling or feel that they are about to be endangered. And 
without certainty that comes from the Animas drawing tourists 
and providing crop water, they may not be able to secure the 
funding of the sort that they need to be able to make it 
through potentially lean times. A listing under the Superfund 
could taint this area for decades to come, without regard to 
the impact that it could have on businesses.
    I think we can all agree that tourism requires a clean 
environment, especially river-based tourism where people can 
swim, fish, or kayak. Tourism is also dependent upon a 
perception. A belief that the area is contaminated with toxic 
waste would undeniably affect how many people are willing to 
spend the night and spend their money there. Superfund status 
is a billboard announcing to the world that the environment 
here is not safe for humans. Whether it is true or not, people 
will look to the Animas and the San Juan Rivers, see that the 
Superfund designation is there, and decide possibly to go 
elsewhere.
    Superfund status does bring with it a stigma, right or 
wrong. Often with that, perception is a reality. That seemingly 
simple choice to spend vacation dollars somewhere other than 
southwest Colorado would have a severe impact on the small 
business owners who rely on that tourism income.
    We all want the best possible solution to this devastating 
spill, but throwing the full weight of CERCLA and the Superfund 
designation onto Silverton and Durango when other equally and 
even more effective options could be available could have 
serious consequences for these communities and beyond.
    I have always believed that local communities know what is 
best for themselves. They have an intimate understanding of 
their hometown economies and hear firsthand from their 
customers about why they visit the area. Supplanting 
government's judgment with their on-the-ground knowledge stands 
to increase the economic harm already done in this area. We 
should seek solutions, put the power and funding to be able to 
address these problems in the hands of the folks on the ground 
who have been working to solve these problems for years.
    The good Samaritan approach that I have been broaching, and 
I am pleased to be able to see both of our Senators from the 
State of Colorado here who join with us in that concept of 
being able to address the problem and to make sure that we are 
achieving a positive result, and I appreciate that support, is 
one of the possible solutions as opposed to a Superfund 
designation.
    The Animas River is a significant source of revenue in 
southwest Colorado and beyond, especially during the summer 
tourism season. This avoidable spill will have a significant 
impact, a long-term impact, and we are working with state, 
local, and federal officials to gather information to assess 
the damages and get a full accounting of what transpired.
    As we contend with the damage already inflicted on small 
businesses in southwest Colorado and the future difficulties 
that they will face as a direct result of the Gold King Mine 
blowout, I urge everyone to consider options that do not 
ultimately compound the disaster.
    I appreciate this hearing and appreciate the opportunity to 
be able to testify.
    Senator Gardner. Thank you, Congressman Tipton. Thank you 
for your testimony this morning. I know you have got a vote 
that you will probably be able to make now, so thanks for your 
time today to be here.
    I dismiss the first panel. Thank you very much, Congressman 
Tipton.
    Representative Tipton. Thank you very much.
    Senator Gardner. Did you want to say something?
    Senator Bennet. It was wonderful to see you. Thank you so 
much.
    Representative Tipton. Senator Bennet, a pleasure to see 
you. Thank you.
    Senator Gardner. I will now proceed with my opening 
remarks.
    On August 5, 2015, the Environmental Protection Agency 
released approximately three million gallons of contaminated 
water into Cement Creek from Gold King Mine north of Silverton, 
Colorado. The water quickly moved downstream to the Animas 
River and eventually flowed into the San Juan River and Lake 
Powell, which is 300 miles downstream. The spill had an impact 
on Colorado, New Mexico, Utah, the Southern Ute Indian Tribe, 
Ute Mountain Ute, and the Navajo Nation.
    From the outset of the spill, I have said that the EPA 
should be held to the same standard as EPA would hold a private 
company for the spill. This means investigations must be 
conducted, people must be held accountable, and tough questions 
must be asked.
    The La Plata County Sheriff closed public access to the 
Animas River on August 6. We visited the spill site on August 
9, Senator Bennet and I, four days after the spill, and the EPA 
still did not have an appropriate crisis response team in 
place. It was not until the following day, August 10, that the 
EPA established a unified command center in Durango to address 
the spill.
    The river was not reopened until August 14, nine days after 
the initial surge of contaminated water. Water testing shows 
that the surface water of the river has returned to pre-event 
levels, but many remain and have questions about sediment in 
the river bottom and the rocks lining the river. The sediment 
contains various pollutants, and the EPA initially installed 
settling ponds to address this contamination, which we hope 
will slow the flow of contaminants in the Animas River.
    Last month, there was a series of Congressional oversight 
hearings that took place in both the United States Senate and 
the House of Representatives. We learned answers to some 
inquiries during the EPA's testimony at these hearings, but 
more questions remain on what exactly took place in the events 
leading up to and immediately following the spill and how to 
get our communities back on track, including liability 
compensation from the EPA. It is my hope that the EPA's Office 
of Inspector General's report will provide more clarity and 
transparency on the spill, and I also look forward to the 
release of the Department of Interior's assessment of the Gold 
King Mine spill.
    For Colorado and downstream communities, there are still 
serious concerns that exist that the EPA must address. EPA 
recently announced that by October 14, the Agency will open a 
temporary water treatment system which will replace the 
settling ponds that were first constructed by the EPA in 
August. It is good news for our communities for the winter 
months, but further mitigation, like EPA's long-term 
remediation plan, and the need for future monitoring for 
heightened contamination during spring runoff must still be 
addressed.
    Some claim that the Gold King Mine spill shows the need for 
broad mining reform legislation, which would include reforms to 
the Mining Law of 1872. In reality, what we have to work on 
right now is the need for legislation that would allow these 
abandoned mines across the West to be cleaned up by good 
Samaritan, language that has passed the Senate committees 
before, while other conversations about mining laws move 
forward.
    There has been broad bipartisan support for passing good 
Samaritan legislation in the past. I am committed to working 
with Senator Bennet, Environment and Public Works Committee 
Chairman, in a bipartisan fashion to get good Samaritan 
legislation through the Senate. In fact, that is the only way 
that we are going to get good Samaritan legislation through, is 
to work in a bipartisan fashion. I am also working with Senator 
Bennet on the need for a water treatment plant in the Upper 
Animas River Watershed.
    And, so, today's hearing is extremely important because it 
provides us with a different view than we have had in the 
previous hearings. It provides us with an opportunity to hear 
from people on the ground who are business owners, who 
represent businesses in communities, and who represent the 
people of the counties affected.
    And that is why I am disappointed that we do not have an 
EPA representative here who could answer basic questions about 
the points that Congressman Tipton raised in his opening 
statement about compensation, about how do you determine what 
level of compensation to provide to a hotel, whether it is a 
cancellation--is that related to the Gold King Mine spill--of a 
rafting trip. Is it the cancellation of a hotel room? Is it the 
cancellation of a dinner reservation? How can we really 
determine what costs are incurred? These are questions that we 
still have and we would have liked to have had answered today 
by the appropriate representative. Property damage, lost 
economic opportunity, and as Congressman Tipton mentioned, the 
long-term impact--how do we get answers and compensation for 
these very significant issues?
    There are going to be a number of proposals before Congress 
and I look forward to working on them with Senator Bennet. And, 
again, I think it is critically important that the only way we 
can address some of these issues is, of course, with bipartisan 
support.
    With that, I will turn it over to Senator Bennet for your 
opening statement. And to the panel, if you would like to come 
take your seat while we are doing opening statements, that 
would be great. So, thank you. Come on up, to the three 
panelists, and Senator Bennet, if you would like to begin your 
statement.

  OPENING STATEMENT OF HON. MICHAEL F. BENNET, A U.S. SENATOR 
                         FROM COLORADO

    Senator Bennet. Thank you, and Mr. Chairman, let me say, 
first of all, thank you so much for holding this hearing and 
thank you for including me. You did not need to do that. I 
appreciate it. I am not on the committee, but as you know, I am 
deeply interested in getting to the bottom of this, as you are, 
and getting the answers that we need, so thanks for inviting me 
this morning.
    It is my pleasure to have the chance to welcome 
Commissioner Blake, Ms. Gallegos, and Mr. Corra.
    The blowout at the Gold King Mine affected communities and 
businesses, as you have heard, throughout southwest Colorado, 
and there is no denying that the EPA caused this, and that is 
entirely unacceptable. We have held hearings, as the Chairman 
said, on EPA's actions, and it is appropriate that we now 
consider the economic aspects of this bill.
    The Animas River is the lifeblood and economic engine of 
southwest Colorado. As we will hear today, rafting companies 
lost business, sports fish trips were canceled, tourism 
suffered, and farmers could not water their crops. The damages 
from the spill are still being calculated and we may not know 
the full extent for years to come. Businesses and individuals 
are starting to file claims to recover their losses. As 
Chairman Gardner said, they deserve to be fully reimbursed for 
their damages and the EPA is committed to doing so.
    The Gold King Mine Spill Recovery Act that I have 
introduced with Senator Tom Udall will ensure that the EPA 
follows through on this promise, and we will continue to want 
to work with our colleagues to get that bill right. The bill 
requires the EPA to reimburse businesses, tribes, governments, 
and individuals for property damage, lost revenue, and 
emergency expenses. It also calls on the EPA to construct a 
permanent water treatment plant north of Silverton to tackle 
this problem at its source.
    The four mines in the Upper Animas River Basin release more 
than 300 million gallons of acid mine drainage every year. We 
need solutions, as Senator Gardner said, to address this 
pollution all across the West. That is why Senator Gardner and 
I are working on good Samaritan legislation to encourage the 
cleanup of abandoned mines.
    It is long past time for us to address this issue, and I 
think part of the issue we have had, Mr. Chairman, is that 
people in this place are too focused on the East Coast and the 
West Coast and are not paying attention to the Rocky Mountain 
watersheds, which, by the way, if you live downstream from the 
Rocky Mountain watersheds, which almost everybody in the United 
States does, you need to take an interest in what we are doing 
there to make sure that we do not have another disaster like 
this.
    And, I also believe that as part of this, we should reform 
the 1872 Mining Law to make sure that mining companies pay 
royalties to taxpayers, just like everybody else on our public 
land.
    Like many other business owners and elected officials, our 
witnesses today, Commissioner Blake, DeAnne Gallegos, and Andy 
Corra, understand firsthand the need to address legacy mining 
so we do not get hit with another blowout. Senator Gardner and 
I appreciated meeting with both Mr. Corra and Commissioner 
Blake during our visit together to Durango four days after the 
spill.
    Mr. Corra is the co-owner of 4Corners Riversports in 
Durango. 4Corners Riversports is an outdoor retail store, 
paddle school, and commercial rafting business. It is open for 
business today, I will bet, so if anybody is listening to the 
hearing, please go. Mr. Corra has built his business and raised 
his family in southwest Colorado, like so many other 
entrepreneurs, and as with so many small business owners in 
Durango, Andy depends on the Animas River for his livelihood. 
So, when the water turned orange in August in the middle of 
peak rafting season, it hit his business hard and without 
warning. I look forward to learning more from all the witnesses 
this morning.
    Mr. Chairman, thanks again for inviting me to speak briefly 
and for holding this important hearing.
    Senator Gardner. Thank you, Senator Bennet.
    Our first witness is La Plata County Commissioner Brad 
Blake from La Plata County, Colorado. Commissioner Blake's 
family first moved to Durango, Colorado, in the 1930s. He is 
serving his first term on the County Commission Board and we 
are pleased to have him here today.
    Next up, we have DeAnne Gallegos, the Executive Director of 
the Silverton Area Chamber of Commerce. Ms. Gallegos is a 
third-generation Silverton resident.
    And last, but certainly not least, we have Mr. Andy Corra, 
as Senator Bennet mentioned, owner of 4Corners Riversports in 
Durango. 4Corners is located on the banks of the Animas River, 
which is described in your testimony as the lifeblood, I 
believe, the heart of Durango, and has been in business for 
over 35 years. Mr. Corra will be able to provide a firsthand 
experience on what this spill has meant for the community 
throughout the region.
    So, thank you to the witnesses, all of you, for traveling 
so far to be here today, time away from work, from family. It 
is truly appreciated, to shed light on questions that need to 
be addressed, and I look forward to your testimony.
    Mr. Blake, if you would like to begin.

 STATEMENT OF BRADFORD P. BLAKE, COUNTY COMMISSIONER, LA PLATA 
                        COUNTY, COLORADO

    Mr. Blake. Thank you, Senators. I appreciate the 
opportunity, and I would like to thank Chairman Vitter, as 
well, to speak at the Small Business and Entrepreneurship 
Committee concerning the impacts of the Gold King Mine spill.
    My name is Bradford P. Blake. I am a small business owner 
and a County Commissioner in La Plata County, Colorado. I 
appreciate the opportunity to testify about how the incident 
has affected businesses in southwest Colorado.
    We are very blessed to live in an area of great natural 
beauty, from 14,000-foot peaks to desert valleys. The rivers 
that run through this area are beautiful and clear. The premier 
is the Animas River, which starts in the mountains above 
Silverton and flows through Colorado and 126 miles through La 
Plata County and the City of Durango, the Southern Ute Indian 
Reservation, to the New Mexico border, and on to Utah and Lake 
Powell.
    The mountains above Silverton are rich in minerals and 
metals, which attracted miners to the area starting in the 
1860s. Mining support companies followed, along with other 
businesses that developed as the community flourished. Some, 
you would recognize, such as the renowned Durango-Silverton 
Narrow Gauge Railroad. Others, you might not, but they 
encompass many different types of enterprises, such as tourism-
related businesses, including rafting companies, bike stores, 
hiking and outdoor recreation outfitters, hunting and fishing 
guides, hotels, restaurants, and other related support 
services.
    La Plata County also has considerable agricultural 
interests, including many organic farms, ranches that rely on 
the waters of the Animas to support their operations. And then 
there are the businesses you would expect to find in a thriving 
community, including retail and grocery stores, real estate 
offices, banks, and all other services that support our 
economy.
    All of these great businesses employ a few to hundreds of 
people, and the spill has impacted all of them in some way. 
News of the Gold King Mine spread far and wide, not only 
nationally, but around the world. The Durango Area Tourism 
Office conducted a media analysis for the period of August 5 
through August 24 and determined that 19 million impressions 
were made, impressions like this that I have from the Durango 
Herald, and this was seen around the world. I had friends from 
all over the country call me and ask me about it. I brought you 
all a copy of the Durango Herald today to look at this. The 164 
articles about the incident had a value of more than $3.4 
million worth of advertising--the wrong kind of advertising.
    Summer is the height of the tourist season and it was cut 
short, first by the visual impacts of the Gold King and then by 
lingering questions about the impact of the spill on the river 
and our community. The businesses most severely impacted were 
the rafting companies. Their season was abruptly interrupted on 
August 5 and 6, the day of the spill. There are 10 local 
rafting companies in La Plata County that employ in excess of 
150 people. All were directly impacted and had to lay off 
employees during the period of the river closure. One rafting 
company owner advised me that he estimates his losses to be 
$100,000.
    When tourism-related businesses are impacted, there is a 
ripple effect throughout our economy on hotels, restaurants, 
and retail stores. Those, in turn, impact the collection of 
local sales tax and lodgers' tax.
    But tourism businesses were not the only ones impacted. 
Agriculture took a hit, as well. Small local farmers had 
reduced crop yields due to the lack of water at the hottest and 
driest time of the growing season. Ditches that provide 
irrigation water to farms were closed for up to 10 days, in 
some cases leaving farmers high and dry. One rancher reported 
to me that he lost half of his second cutting of hay, which is 
$8,600 worth of hay. For a small rancher, that is a big deal.
    Equally significant is the impact of the spill on the 
reputation of the organic farms that utilize the river. How can 
their reputations be restored when doubts about the quality of 
the water remain?
    In another example, the entire inventory of Durango 
Nursery, a local plant and tree nursery located on the banks of 
the river, was threatened by the inability to use the river for 
watering purposes. Owner Tom Bridge had to haul water at his 
own expense until arrangements were made for the water to be 
delivered until the river could be used again. But even that 
could not help bring customers in. Tom estimates he lost 
$20,000 worth of business due to the decline in customers 
during the period of the Gold King incident. And sales have not 
recovered. In fact, Tom estimates that his sales for the year 
will be down 1.25 percent from his projections as a result of 
the spill.
    As news of the incident spread, calls came into our 
community from around the country asking questions like, are 
all the fish dead? Will the fumes harm my family if we walk by 
the river? Is the river ever going to recover? It is obvious to 
me that our community's image and reputation as a natural 
scenic, family friendly outdoor mecca has been badly damaged as 
a result of the spill.
    Clearly, we do not know yet what the long-term impact of 
the Gold King spill and the publicity generated by it might be, 
but we anticipate that there could be lingering negative 
images, public health and safety concerns, and a decline in 
future visitations, all of which will impact small businesses 
in La Plata County.
    As a small business owner myself, I am concerned about 
uncertainty created for our local businesses resulting from the 
spill and heightened awareness of acid mine drainage. It is for 
this reason I ask for your support of expeditious reimbursement 
to businesses and employees impacted by the Gold King Mine 
spill. I urge your thoughtful consideration of S. 2063, the 
Gold King Mine Spill Recovery Act of 2015.
    I also advocate for a speedy and collaborative response to 
this ongoing and age-old problem of metal loading in the Upper 
Animas. I urge Congress to move expeditiously, but also 
thoughtfully, to address the larger problem of acid mine 
drainage in the Animas River Watershed that impacts not only La 
Plata County, but all communities along the river.
    On behalf of the citizens of La Plata County, Colorado, I 
thank you for your interest, your time, and your consideration. 
Thank you very much.
    [The prepared statement of Mr. Blake follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]     
       
    Senator Gardner. Thank you, Mr. Blake, and the newspaper 
article you referenced, without objection, will be entered into 
the record.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]     

    Mr. Blake. Thank you.
    Senator Gardner. Ms. Gallegos.

  STATEMENT OF DEANNE GALLEGOS, EXECUTIVE DIRECTOR, SILVERTON 
            AREA CHAMBER OF COMMERCE, SILVERTON, CO

    Ms. Gallegos. Good morning, gentlemen.
    Senator Gardner. Good morning.
    Ms. Gallegos. Thank you for the invitation and bringing 
Silverton to the table. My name is DeAnne Gallegos and I am the 
Executive Director of the Silverton Area Chamber of Commerce. 
My intention for my opening statement is to tell you who we 
are.
    Silverton was a raucous, rumbling mining town. It was the 
pioneer spirit that brought folks out to the West with the 
discovery of gold, silver, and other minerals in the hills as 
to why we still exist. Silverton was incorporated in 1874. From 
1881 to 1882, Otto Mears built the Durango-Silverton Narrow 
Gauge Train, which changed the entire area. We still depend on 
that 100-plus-year-old train as part of the heart of our summer 
economy.
    There are 699 of us--technically 701, both Lisas had babies 
this summer--and about 520 of those actually live in the town 
of Silverton. We get an influx of summer residents and then 
they go south, and then we get an influx of winter residents. 
So, the solid, hard-core number of year-around residents is 
around the 500, but we fluctuate depending on the season, being 
a tourist town.
    The number one land owner in San Juan County is the federal 
government. Eighty-five percent of our land is owned by the BLM 
or the Forest Service. We have 388 square miles in our county 
and Silverton is the only municipality left standing. San Juan 
County used to be linked and littered with many mining towns 
which are now ghost towns, literally ghost towns, buildings 
that you can go in and see the past. But we are the heart of 
the San Juan Mountains, right off the Continental Divide, and I 
am telling you, it takes an extremely hardy soul to live there. 
I know.
    Being third generation, my grandfather came after World War 
II to be a miner. My father and mother met at Silverton High 
School, were homecoming king and queen in--I should not say the 
year, because you will kind of pick up on the age, but it was 
in the late 1950s. And then my father started a family right 
away and also went into mining, but then moved to the city, 
which I was born and raised in Denver.
    I would spend all my summers in Silverton as a child, so 
now as an adult living there, full-time resident, it is like 
reliving your childhood. Silverton is a base camp for us. We 
live there so we can live in those mountains. That is something 
that is intangible unless you experience it, unless you have 
stood in the bowl of that caldera, which is the volcano which 
created the only level land, which is where my town was built.
    Because of that, 48 percent of our economy is dependent on 
tourism. Since the 1990s, when the last mine closed, we have 
tried to figure out who are we and where are we going, but we 
also embrace and celebrate our mining heritage. It is who we 
are.
    We offer tourism through ecology, yet our ecology and our 
economy are extremely fragile, just like the tundra that we 
live below. Silverton is nestled at 9,318 elevation feet, just 
below timberline. That is why folks come to visit us. Repeat 
tourism is critical and, actually, a very stable part of our 
economy, as well as second home owners and the influx of 
seasonal workers that come in and out of our community to help 
us get through our tourism seasons.
    We experience a little over 400 inches of snow in a year. 
We have got one road in and one road out in the winter, and 
that is Highway 550, which is one of the most dangerous 
highways in the United States. Along that highway, which 
separates us from services, 50 miles either to the south to 
Durango or 60 miles north to Montrose, is 150 avalanche paths. 
It is Mother Nature's way of shedding snow. But, that also 
means that we are vulnerable to being blocked in, or blocked 
out, quite frankly.
    We have the Alpine Loop, back country experience with 
hiking, jeeping, camping, OHVs, and in this back country is 
exactly where Red Bonita and Gold King are seated. So, when you 
go into our back country now, you do see the incident 
firsthand. You do see the blue tarps with the sediment and the 
activity that is going on. Across the street from our number 
one employer in the winter, Silverton Mountain, is this 
remediation situation and base camp for the EPA.
    We understand and acknowledge and know that we are now in a 
long-term relationship with this situation, with the EPA. We 
look forward to taking responsibility and being proactive in 
dealing with being at the top of the watershed and these old 
mines. Again, if it was not for all of these mines, the West 
may not be what the West is today. And again, we embrace our 
heritage and our past and we are proud of that, and this 
situation has changed the way that is looked upon.
    Talking about employers and employment, again, we are 48 
percent of our economy is tourism. When you are talking about 
the top employers in San Juan County, we have no corporate 
entity. We do not have a big office building. It is Silverton 
Mountain at 40 employees. Second-largest employer in San Juan 
County is one of our largest restaurants, at 22 employees. We 
have a 10-month business cycle out of a 12-month calendar year 
to make it.
    Winter and summer are night and day. A lot of our town 
closes for the winter, and in the summer, when that train comes 
rolling in, we open up all our doors, clean all of our windows 
off, and we are there to welcome the influx of thousands, 
hundreds of thousands of tourists who come to experience us, 
whether it is a day, a week, or four months. And we are 
dependent on that, thankful for that, and understand that 
without that, we, too, could have the potential of being one 
more ghost town.
    I bought my grandmother's home that was moved from a ghost 
town in Eureka in the 1940s, and my kitchen is slanted and my 
walls are little and the doors are tiny, but I love my house 
and I love my community. That is why we are all there. That is 
why I am here, to speak up for them.
    Before the incident, we already were struggling with a 
housing issue, which is a domino effect of, if we cannot house 
seasonal employees, then who is going to work in the 
restaurants and the shops and the hotels? We were already 
struggling with more jobs than people in town. But we have to 
also be conscientious of switching of seasons. The folks who 
leave in the summer, the winter people come in and replace them 
with housing. We do not live in a normal, typical, day-to-day 
town.
    We still have dead fiber in the ground. We are not 
connected to fiber. So when we sit around and we discuss what 
is economic development for Silverton, and one of the type of 
individual we can bring in is someone who can bring their own 
business, we do not have the infrastructure to support that. 
So, again, we go back to tourism.
    Gentlemen, we are counting on you two to represent us and 
to speak up for us. I know you both have been there. We had a 
meeting on August 12, Senator Gardner, that was set up before 
the EPA incident, and I, blissfully, naively, wanted to stick 
to those issues, to discuss the housing and the employment pool 
and our tourism and where do we go from here, not knowing that 
the train was coming down the tracks and we were tied to it.
    But what I do know about my community is that we still 
embrace that pioneer spirit. Therefore, we want to create a new 
relationship with the federal government and the EPA, not 
status quo. We want them and you to be aware of our situation. 
Housing is an issue. To have an influx of federal workers 
coming in and subcontractors, we cannot allow the housing we 
already did not have for the people to be displaced because of 
that, because who is going to be there to help these small 
businesses?
    I have had small businesses tell me that they have left 
over 60 grand on the table this summer alone because of lack of 
employees. I have a business that can only open five days a 
week instead of seven, which null and voids one business week a 
month, because he literally did not have employees.
    We have had cancellations. We have had real estate deals 
fall through. We have had banks pull out of our new community 
construction loans, providing loans, just because of this talk, 
because of what is going on.
    So, I ask you two to remember us. We are important. Just 
because we are the little guy and there are only 700 of us does 
not mean that we do not matter, and we are putting trust and 
faith in you to do so. Thank you.
    [The prepared statement of Ms. Gallegos follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]     
        
    Senator Gardner. Thank you, Ms. Gallegos, and tell the 
Lisas congratulations.
    [Laughter.]
    Ms. Gallegos. I will.
    Senator Gardner. Mr. Corra.

    STATEMENT OF ANDREW CORRA, OWNER, 4CORNERS RIVERSPORTS, 
                          DURANGO, CO

    Mr. Corra. Yes. Thank you for having me today, Senator 
Bennet and Senator Gardner. As Senator Bennet said, my name is 
Andy Corra and I own 4Corners Riversports in Durango, Colorado.
    We have been around for 35 years and we employ up to 50 
people in the high season. We are pretty diverse. We have a 
retail store, we have a paddle school, and we have a commercial 
rafting operation.
    You know, the day the Gold King spill happened, it was a 
hard day in Durango. The river is, in many ways, the heart and 
soul of the community. It runs straight down the center of the 
valley and the mighty Animus runs just adjacent to downtown, 
and it is important to the people in town.
    The picture there Mr. Blake has of those three kayakers, 
those are friends of mine who found themselves surrounded by 
the orange sludge, and they were the first ones who told us, 
hey, something is going on with the river. Word spread quickly 
throughout the community.
    I went out on the Animas River Trail late in the afternoon 
as the spill was moving towards town and there were literally 
hundreds of people gathering along the trail, just in the 
section I was in. So, the whole trail through town, I 
understand, was filling up with people. And, I can tell you, it 
was like a funeral that day. You know, people were really 
upset. It felt really personal. There were a lot of tears shed. 
It felt like a close family member had been injured or hurt, 
and it really hurt the town. It hurt people's, you know, just 
morally hurt the people. But, it woke us up. You know, it woke 
us up to this longstanding pollution issue that we have in the 
Animas.
    Durango invests a lot of money in making it a desirable 
place to live, and the investment pays off. We attract a lot of 
great businesses. We attract a lot of entrepreneurs, small 
business owners, creative thinkers, telecommuters. You know, 
you can see it. Our economy is strong in Durango.
    Examples of these investments: We just completed a new $3 
million whitewater park, essentially a playground for rafters 
and kayakers. It is wonderful. The town has invested $20 
million in the Animas River Trail. I think one of the better 
examples is, recently, there was a half-cent sales tax passed 
in town. It is earmarked specifically for parks and recreation. 
That ballot measure passed by 69.5 percent of the vote. So, 
nearly 70 percent of the people in our town voted to tax 
themselves at a higher rate. I do not think that happens very 
often. I think that is really a testament to the spirit of our 
community.
    So, 2015, for my business, was great. It was the best year 
that we had had in a long time. You know, we are used to a lot 
of adversity in the river business. We have drought years. We 
have down economies that seem to affect the tourism market 
first. We can plan and adjust for those things. This year, we 
were going full speed. Sales were great. The rafts were filled 
with tourists. And then, boom, the river was closed. We did not 
have any time to plan, any time to adjust.
    So, my rafting company, our sister company, lost about 
$19,000. The paddle school was down about $8,200. Stand-up 
paddleboard rentals and raft rentals, down about $3,800. We 
went from up 9.8 percent to down 23 percent, and as Mr. Blake 
mentioned, one of the largest outfitters in town, the $100,000 
that he lost, that was in the eight days of closure. So, he was 
down 50 percent for that entire month of August.
    You know, and beyond those losses, it is the 150 employees 
who immediately lost their jobs. So, those are raft guides. 
They are action video photographers, bus drivers, office 
personnel. They were immediately out of work. So, while we had 
the problem in the business, it is really those individuals 
that really concern me.
    You know, I am confident, I am confident that with Senator 
Bennet's bill, the Gold King Mine Spill Recovery Act of 2015, 
our local community, our state, and the federal government, 
that a lot of those people will be made whole. My greater 
concern is that we address this long-term problem created from 
our region's mining legacy.
    You know, mine pollution is not new to the Animas River. I 
mean, the Gold King mine blowout was spectacular, there is no 
doubt, three million gallons of bright orange toxic sludge 
going into the river in a matter of hours. But, I think it is 
important to know that that same mine was leaking 200 to 500 
gallons of the same water every minute prior to that, that 
there are other contributing mines that add up to six million 
gallons a week. So, that is 330 million gallons of toxic water 
going into our watershed every year.
    So, the Gold King represents, what, one week's worth of 
that natural drainage. So, that is where the outrage should be. 
That is where our energy should be directed. I mean, this is 
the ticking time bomb that hangs over our heads. As a business 
owner, it makes me reluctant to invest in the future if this is 
going to happen again.
    And the impacts, like we have said, they go way beyond 
Durango. From Silverton, Colorado, to Grand Canyon, Arizona, 
people depend on this river. It is the lifeblood. And the 
headwaters of this lifeblood deserve to be cleaned up once and 
for all.
    Look, I think everybody agrees that the EPA messed this one 
up, right. But, we waste a lot of our energy and anger going 
after these EPA firefighters who were tasked with the 
impossible job of putting out this out-of-control fire with a 
garden hose.
    I mean, the spill makes clear that the piecemeal approach 
of the past is not working. It is a complex problem. There are 
tons of mine portals. There are bulkheads that need to be put 
in. There is water that needs to be redirected. There is water 
that needs to be treated. And it is an ongoing problem. We need 
a comprehensive approach to cleaning this up.
    So, yes, good Samaritan legislation as proposed by the last 
Congress makes good sense. Yes, the 143-year-old 1872 Mining 
Law needs to be reformed and brought in line with other 
extraction industries. The EPA needs to partner with the 
stakeholders in Silverton. They have a lot of knowledge up 
there. They need to consult with those folks.
    And, yes, we need a water treatment plant in Cement Creek 
today, and it needs to be fully funded. And I want to thank you 
Senators here for proposing that. It is a really important 
first step. But, understand that. It is only a first step. All 
of the above list--it does nothing to give us money today that 
we need. It does nothing to plan a long-term fix for this 
problem.
    Look, it is a complicated problem. You know, there is 
really only one entity. Do we want--if we can reinvent the 
wheel and get money elsewhere, great. Let us do it. But right 
now, today, there is really one entity who can handle this. 
There is only one entity that has the experience, that has the 
technical expertise and has the potential funding sources, and 
that is the EPA.
    I understand that it makes a lot of people nervous to 
invite in the EPA on a big basis. I get that a lot of the 
Senators may not want that type of fix. But right now, adding 
the Animas Basin's offending mines to the EPA's Superfund 
National Priorities List is really the only clear path forward.
    I know there is a lot of fear around that, but I go to 
Moab, Utah--Superfund site. You been to Moab lately? It is 
booming. There are thousands and thousands of tourists flocking 
to that town. Aspen, Colorado, I do not think their real estate 
values are hurting from this. They are a Superfund site.
    I think it can be done in a sensitive manner, in a directed 
manner, just at those mines. And if there is another funding 
source that can happen, great. But if I were the federal 
government and somebody came to me with this laundry list, I 
would say, well, that looks great. We have an excellent program 
for that. It is called the EPA and Superfund.
    So, in conclusion, Durango and surrounding communities 
depend on the Animas River for water, drinking, irrigation, 
industry, and recreation. The ongoing pollution and the likely 
periodic major releases threaten our communities' health and 
livelihood. While supporting all of the above solutions, only 
the full effort and comprehensive approach of the EPA can 
address these problems permanently.
    I appreciate your consideration of my comments and I 
welcome any questions.
    [The prepared statement of Mr. Corra follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]     
      
    Senator Gardner. Thank you, Mr. Corra.
    We will jump right into questions, and I think we will 
probably just go back and forth on questions and get through 
several of these.
    I wanted to start--Mr. Blake, if you want to start with 
this, and then feel free, Ms. Gallegos or Mr. Corra, to jump 
in, as well. Can you talk about some of the experiences that 
you have heard from businesses in the two counties about how 
they are going to handle this from the cost, calculate lost 
revenue, how they are moving forward, and then also perhaps 
talk about lost revenue to the county, if you have been able to 
make that calculation yet.
    Mr. Blake. Well, I will start off with lost revenue to the 
county. We have a lot of time just with county employees in 
working with the EPA. I will add that our staff, our county 
manager and our county attorney and all the support staff just 
did an excellent job of really leading the effort and 
coordinating with the EPA. They have done an excellent job. So, 
there are costs there.
    If you want to look at taxes, larger taxes directly were 
affected. We are not sure quite yet--not sure yet how much they 
were affected, but those are taxes that would take a hit.
    Some people have said, well, the EPA came to town and 
filled up all the rooms that were not taken, but I will remind 
you that they do not pay lodgers' tax, and lodgers' tax goes 
directly to what we were talking about, fighting against any 
negative images that might have occurred. The Durango Area 
Tourism Office does a great job of putting information out 
about the whole Four Corners area and drawing people in.
    As far as businesses, I have talked to a lot of business 
people, from the farmers that I mentioned to the real estate 
offices. I talked to one gal who actually had somebody just 
walk away from a real estate deal, as was mentioned by Ms. 
Gallegos. People are nervous about this. It really worries 
them.
    Calls--I personally had calls from friends and family 
around the country that said, hey, what is going on? One of my 
cousins was extremely upset, because he remembers the days when 
we were kids fishing in that river. He said, ``I remember those 
days fishing in the river and how fun they were, how beautiful 
the river was.'' He was very upset about it.
    So, there are those images, those concerns. Congressman 
Tipton mentioned perception. It really is a lot about 
perception. The river may have returned back to its normal or 
as close to normal as you can get, but it is back to where it 
was. People do not necessarily get that information. They are 
still seeing the images like I mentioned earlier, and that, I 
think, is what we are looking to next year, what will be the 
outcome of this, and maybe even the following year.
    Senator Gardner. Mr. Blake, to follow up on that, has the 
EPA indicated that they will reimburse the county, then, for 
the time, the employee time that you have had and the equipment 
time that you have had?
    Mr. Blake. They have.
    Senator Gardner. Okay, and the full cost reimbursement?
    Mr. Blake. We are working with them on reimbursement, and 
so far, I think, that is going along as could be expected. We, 
as far as I know, have not received any funds yet. We have 
spent in excess of $200,000----
    Senator Gardner. Just the county budget?
    Mr. Blake. Just the county, yes. That is just the county.
    Senator Gardner. Just the county.
    Mr. Blake. There are a lot of businesses that were 
impacted, from a small amount to a larger amount. Some of the 
businesses that were mentioned, if they have been--taken a hit 
of $100,000 or more, that is a problem, because the Form 95 
that the EPA provides does not allow for recovering what you 
have lost. It has a limit on what you can actually recover.
    Senator Gardner. Thank you, Mr. Blake.
    And, if I could get Form 95 entered into the record, too, I 
think that would help, too, so we will just put that in the 
record, as well.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]     
       
    Senator Gardner. Do we know whether the real estate deal 
that you talked about, walking away--if somebody is there 
walking away from a real estate deal, that is a lost 
opportunity. Will that be something that you can submit on a 
claim? How do you prove that? That is just a loss that will 
never be reimbursed----
    Mr. Blake. It would be really hard to prove----
    Senator Gardner. Yes.
    Mr. Blake [continuing]. That they did not walk away--I 
mean, real estate deals fall apart all the time.
    Senator Gardner. Yes.
    Mr. Blake. But--and there was more than just one. I have a 
personal friend that said her client walked away from the deal 
specifically because of that. I heard some other people mention 
similar stories. But hers, they specifically said, hey, that is 
it for us.
    Senator Gardner. And Mr. Corra, I do not know if you want 
to comment, but I am running out of time, so I will turn it 
over to Senator Bennet, but feel free, if you want to, to add 
to that, as well.
    Mr. Corra. Well, you know, we know what our direct costs 
were. I mean, it is pretty easy for us to calculate.
    Senator Gardner. Right around $30,000, is that right?
    Mr. Corra. Yes, that is right. So, that is pretty easy for 
us to back into. You know, my concern, really, is the long-term 
impact. Like Brad said, the media images were, you know, were 
everywhere. I mean, we could not have asked for that kind of 
coverage, and we did not ask for that kind of coverage.
    So, my concern is the people next year who are thinking 
about coming to Durango. So, what do we do about that? I mean, 
I think showing a concerted effort, letting people know that 
our river is cleaned up. You know, I was in the river the day 
before it closed and I was in the river the day it opened, and 
it was looking a little messy in Durango those first two days. 
I can tell you----
    Senator Gardner. You are not making us very jealous, by the 
way.
    [Laughter.]
    Mr. Corra. Well, right. Right. Right. But, it is looking 
better in town. I mean, it does. And it looks--and Silverton is 
the same way. People are kind of used to the yellow stains that 
are on the edge. That has been going on for 100 years there.
    But, it is things like, you know, when I first moved to 
Durango 35 years ago, there was a--the river was pretty dead 
above town. I mean, there were not many fish in the northern 
part, the North Valley above Durango. There were some, not 
many. And then they built a treatment plant on Cement Creek. It 
was run by one of the mining companies, and it was in the mid-
1990s, and the river really cleaned up. And then the Durango 
section became a gold medal fishery. I think our status has 
since gone down. So, that operation shut down. That was run by 
a mining company. That shut down. And, the fish--now the bad 
water, the dead water is kind of moving downstream again and 
Durango is down a notch. We are not a gold medal fishery 
anymore because we are not supporting quite as many fish.
    So, I think it is--it is those kind of optics and it is 
that kind of message we need to get out. If we start to clean 
it up with a treatment plant in Cement Creek, I am confident we 
are going to start to see that clean up again. When that is a 
gold medal fishery again five or 10 years from now, people will 
forget about this. They will remember Durango, they will 
remember the Animas River, they will remember Silverton as that 
clean river.
    Senator Gardner. Senator Bennet.
    Senator Bennet. Thank you, and since there are no other 
Senators here today, I can say today without fear of 
contradiction that it is an enormous privilege to represent the 
most beautiful state in the country, Colorado.
    And you do--and I know Senator Gardner feels the same way--
the testimony reminds me how much inspiration we draw from the 
people we represent. I mean, you cannot come from the north or 
south to Silverton and not think about the character of the 
people that built that community, Ms. Gallegos, as you were 
talking about, or take the Alpine Loop Trail, which I have 
done, and see railroads built at almost 14,000 feet by people. 
And I always think when I am there, first of all, what the 
character must have been like, the collaboration must have been 
like, and how empty the political conversation here would sound 
to the people that built Silverton.
    And, you also--the other thing you do when you are 
traveling a lot through Colorado--you never stop when you are 
in one of these jobs, and you pick favorite places, and I can 
tell you a favorite place for me is the hotel that is right on 
the banks of the Animas River, the Doubletree there in Durango, 
because if you get a room on the back, you open up those doors 
and you can hear that river going by and there is nothing quite 
like it.
    So, let me first say that, as Mr. Corra was saying, this 
community is open for business. There is lots to do there 
through the winter and in the summer months. And people should 
not take the wrong lesson from what we are trying to do here, 
because it is safe, but we want to make it safer and that is 
why we are all here today.
    So, let me start with you, Mr. Corra, first. You mentioned 
that this woke us up. That is what you said in your testimony, 
and I think you talked about the long-term issue of legacy mine 
pollution in southwest Colorado, which, as far as I am 
concerned, that is the heart of the issue here going forward. 
We need to clean up the water coming out of these mines to 
prevent future blowouts and to address the underlying pollution 
in the river.
    I wonder if you could use the opportunity here to tell us a 
little bit how the business community in Durango is thinking 
differently about this. What did you wake up to, and what can 
Congress help do to help tackle this problem?
    Mr. Corra. Right. Thank you for that. You know, I think 
what we woke up to--I mean, on a personal level, we woke up to 
maybe our river was not as pristine as we always had assumed. 
You know, we woke up to the fact that, gee, my kids splashing 
around in that water as a toddler, am I super comfortable with 
that?
    I think the reality is that water is safe. I trust the 
numbers that have come from the EPA, and they have been 
confirmed by some local entities, and the water is safe. But, 
it does not mean that the water is pure. It does not mean it is 
as good as it should be.
    I mean, below the town of Silverton, below Cement Creek, 
the river is essentially dead. You know, there are not fish and 
there are not bugs in that section of river. Mother Nature--
between Durango and Silverton, there is 50 miles of pretty wild 
water. We will take you on that stretch someday. It is great. 
And that naturally kind of cleans it up. The metals kind of 
drop out at that point. So, we do have a pretty clean river in 
town.
    But, you know, a lot of the business owners that I speak 
with, what they are concerned about are those optics. So, they 
are concerned that we have got this tainted impression across 
the country. I got those same phone calls as Brad got.
    So, what I think that you can do is we can fund some real 
cleanup up there. It needs to be done in a sensitive manner. It 
needs to be done so that it does not impact Silverton, and I 
think it can be. You know, the mines in Cement Creek are not 
directly in the town, and I think if it is done properly, like 
in Moab, Utah, and other places that the town will benefit in 
the long term. If the optic is, hey, we are taking proactive 
action to clean this up, I think that goes a long way for the 
businesses of Silverton and certainly in Durango.
    Senator Bennet. So, Ms. Gallegos, let me jump to you on the 
same point. You said in your testimony that Silverton was ready 
for a new relationship with EPA----
    Ms. Gallegos. Yes.
    Senator Bennet [continuing]. A different relationship with 
EPA. The EPA has committed to constructing a temporary 
treatment plant, as you know, but has not yet committed to 
finding a way to construct a permanent facility, which I think 
both of us would like to see. Tell us a little more about the 
way you would like it to go, going forward, as we try to seek a 
solution to this.
    It is also important--I think Mr. Corra's point is a very 
important one, too, at the very end, that--and people need to 
understand this--that the water being treated would not be 
right in Silverton. It is north of the town.
    Ms. Gallegos. We are the top of the watershed, and we 
understand that. And, yes, has this been a long problem. But, I 
do not believe that we have to go status quo.
    Now, I want to make a point. I am not a politician. I have 
not been to every meeting with the EPA. But as a general 
citizen, also being part of the incident crisis team, my 
personal concern has been lack of transparency. Listening and 
analyzing all of these hearings that have been going on, again, 
my personal opinion is their testimony stands for itself. That 
is very concerning when you are inviting that into your 
backyard.
    I look at Leadville. He says Moab. I say Leadville. There 
is a very well-written book about Leadville and the impact on 
the community of Leadville. So, just as many positive stories 
out there, there are also the horror stories.
    I, personally, see it as a wait list. That is my concern. I 
agree with Mr. Corra that something needs to happen now and 
today. I travel up to the actual site on a regular basis and I 
see the blue tarps and I see the remediation and I see the 
holes and I see the sediment. Again, personal experience, the 
fact that Gina McCarthy has actually never stepped foot in my 
county, the fact that we had to fight to get the EPA to come do 
a community meeting, the fact that not all situations work out 
blissfully, are concerning to me as a citizen, a landowner, and 
a third-generation Silvertonian.
    I guess I ask, is it immediate money? When we asked that 
when the EPA came to town, there was a lot of, ``We will get 
back to you.'' I would love to trust--I would love for--to know 
for my community that it would be instant, that it would come 
right away, but I do not. And hearing the real estate agency 
say just the talk of the stigma, deals are getting canceled, 
loans are not being offered for construction loans within our 
new Anvil community that we are desperately wanting to build 
are alarming for me.
    Do I believe that the intention is there? Yes, but I am 
also a realist, and I also know what I have experienced, and I 
also know what I have seen and what I have heard in our 
relationship with the EPA. I also would like to acknowledge 
that we understand, and this might be weird to say, that we are 
in an arranged marriage with the EPA. We have been working with 
the EPA for over 25 years. They are here. They have been here. 
It is this accident that they caused that has brought this to 
the forth light, that has really made us the poster child, 
Superfund or to not.
    Where we are concerned as a community is that it is our 
immediate neighbors. Our definition of neighbors has changed. 
It is Durango, to Farmington, to every county and town and 
state that touches that water. And we acknowledge that, we 
respect that, and we appreciate being brought to the table here 
today.
    What my personal experience has been is that Silverton a 
lot of times has not been invited to the table. There has been 
a lot of finger pointing. I have received hate e-mails in my 
Chamber inbox. We have received strange phone calls. We have 
gotten cancellations. We have had tourists turn down water. 
There is an impression and a stigma, and again, we agree that 
that is our concern for long term.
    To say your cash register did not change today does not 
mean it is not going to change tomorrow, or next year, or four 
years, five years. What is that going to look like? I am 
thinking long term. For us to figure out and calculate what is 
happening today is going to be time in the future for when 
those tax numbers come in and when the stories continue to 
roll. This is only less than a couple months. It feels like 10 
years, but it has only been less than a couple months.
    But what I ask, again, in that pioneer spirit--and this is, 
again, personal ask--is that we think outside of the box. Is it 
the magic bullet? I do not know that. I cannot say that. What 
does it actually mean to be on the priorities list? Wait list? 
Immediate remediation? We, as well, want to see immediate 
remediation. To see that the work that is happening up there is 
wonderful, but let us keep going. Let us go forward. Let us 
make it permanent. We also want a water treatment plant. But, 
does it have to be like it has been done since the 1980s? I do 
not know that. And, again, we are turning over our trust to 
you.
    Senator Gardner. Thank you.
    And, to follow up on some of the comments that have been 
made about the funding and some of the Form 95, or the claims 
themselves, to your knowledge, has anybody been reimbursed for 
a claim that has been filed?
    Ms. Gallegos. No.
    Senator Gardner. No?
    Mr. Corra. Not yet, no.
    Senator Gardner. No. And I think you just said it, there is 
no time line that they have given for when they would be filed, 
or have you heard that it would be made in the next week, 
month, six months? Any time frame?
    Ms. Gallegos. No.
    Senator Gardner. To the best of anybody's knowledge?
    Mr. Blake. The--La Plata County actually set up with the 
EPA a meeting place where people could come with their form to 
get help filling it out. It is not a real easy form or friendly 
form to fill out. But La Plata County actually was proactive in 
helping folks fill that out, and I believe they can still get 
help if they need to.
    I think the incident command center has kind of been--has 
stood down at this point, but I think there is still some help 
out there.
    Senator Gardner. Senator Bennet, anything?
    Senator Bennet. No, I----
    Senator Gardner. Do you have any follow-up questions or 
anything?
    Senator Bennet. I have been asking questions of the 
Commissioner, so let me ask you one question, which is, is 
there more that Senator Gardner and I can do to be helpful to 
you as you try to interact with these federal agencies or think 
about what legislation we might want to pass?
    Mr. Blake. Well, the EPA is a pretty big machine. We found 
that out when they came to town in force. They were up above 
Silverton doing some work on a small scale. It turned into a 
big scale, and when they all came in, it was a pretty big group 
of folks that showed up. But, I think that that could be 
something that works against them, almost, so many people that 
came and a lot of different folks would show up every week. We 
would ask for certain things. The next group would come in and 
the ball would kind of get dropped. So, I think the size might 
actually be a detriment.
    I would agree that a collaboration would be good, if 
possible, because there are a lot of experts that are from the 
mining industry that have done a lot of good work up in the 
Mineral Creek drainage. They have done a lot of cleanup on 
their own, on a piecemeal. They do one here, one there, and I 
think that that is a great opportunity to see the best things 
happen, because you get experts that have been doing it. They 
put bulkheads in those mines. They have seen a lot of cleanup. 
And, not that the EPA does not have experts, but there are 
people that have been there a long time. And, I would agree 
that I think a collaboration is really the best way to go.
    Senator Bennet. Well, I appreciate it, and I just want to, 
as Chairman Gardner said at the outset, thank each of you for 
taking time to come here today. It is a long trip, I know, and 
you have got other things--you have got day jobs that you need 
to worry about. So, we are very grateful. But, this testimony 
has been incredibly helpful and our offices are going to 
continue to work with you to make sure that we put this right.
    Thank you, Senator Gardner, for holding this hearing.
    Senator Gardner. And thank you, Senator Bennet, for your 
participation. Thank Congressman Tipton, as well, for his 
participation. To the witnesses, thank you very much for your 
time and testimony.
    There is a lot of work that we need to do following up, I 
mean, ideas on reimbursement, getting ideas for time frames. We 
have got to figure out what the time frame is going to be. We 
have to figure out what kind of claims are going to be 
accepted, lost opportunity. The Form 95 can be filed for two 
years. Does that mean somebody next summer, after they realize 
that they have seen an impact from this, can they file? What 
does that mean? Or do they have to be during the time frame? 
And, so, again, we will get those questions from--answers from 
the EPA for those questions.
    But, you have got a commitment from Senator Bennet and I to 
continue to work on these issues, whether it is conversations 
on the 1872 Mining Law, good Samaritan law. These are things 
that we can no longer--we cannot wait. And, you are here today 
as part of the solution and we truly, truly appreciate that.
    Thank you for your time and testimony today. Thank you to 
Chairman Vitter for allowing this committee hearing to be held. 
And, we wish you safe travels back home.
    This committee hearing is adjourned.
    [Whereupon, at 11:15 a.m., the committee was adjourned.]
  

                                  <all>
</pre></body></html>
